                 MANAGEMENT
                 ADVISORY REPORT



Delivery Operations –
Additional Carrier Services
  JUNE 3, 2014




                   Report Number DR-MA-14-004
                                                                      HIGHLIGHTS

                                                                          June 3, 2014
                                                                Delivery Operations –
                                                           Additional Carrier Services
                                                                       DR-MA-14-004
BACKGROUND:
The U.S. Postal Service's mail volume         reporting on traffic conditions. Some of
declined from about 171 to 160 billion        these ideas may not be immediately
mailpieces from fiscal years (FY) 2010        feasible due to legal restrictions, but
to 2012. The Postal Service had               management should consider them.
net losses of $5 billion in FY 2011 and
$15.9 billion in FY 2012. It prepared a       Additionally, the Postal Service could
Five-Year Business Plan to address            generate revenue immediately by selling
budget concerns and increase profits.         advertising space on its delivery
Most of the proposed efforts to reduce        vehicles. A market analysis the Postal
budget deficits are cost-cutting              Service conducted during our review
initiatives, such as eliminating Saturday     estimated revenue potential of about
delivery, recalculating retirement            $15 million in FY 2014 and $30 million in
prefunding obligations, and downsizing        FY 2015 from this initiative.
the workforce.
                                              WHAT THE OIG RECOMMENDED:
But revenue-generating opportunities          We recommended the executive vice
could also improve the Postal Service’s       president, chief marketing and sales
finances. Taking advantage of the             officer, in coordination with the vice
delivery “last mile” by adding carrier        president, Delivery and Post Office
services not directly related to mail         Operations, develop a strategy to
delivery could increase revenue and           identify, evaluate, and offer the most
enhance the Postal Service brand.             promising additional carrier services,
                                              including ways to overcome identified
Our objective was to assess                   barriers. We also recommended they
opportunities for the Postal Service to       jointly conduct a pilot test on delivery
add carrier services to delivery              vehicle advertising and gather sufficient
operations.                                   data to support a decision on this
                                              concept.
WHAT THE OIG FOUND:
The Postal Service could increase the         Link to view entire report
value of delivery operations, bolster
revenue, and address community needs
by offering additional carrier services.
We identified a variety of services that
could generate revenue, such as
monitoring services for the elderly,
collecting air quality data, verifying
identification, delivering prescriptions on
the same day, updating maps, and
June 3, 2014

MEMORANDUM FOR:             NAGISA MANABE
                            EXECUTIVE VICE PRESIDENT, CHIEF MARKETING AND
                            SALES OFFICER

                            EDWARD F. PHELAN, JR.
                            VICE PRESIDENT, DELIVERY AND POST OFFICE
                            OPERATIONS




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Management Advisory Report – Delivery Operations –
                            Additional Carrier Services
                            (Report Number DR-MA-14-004)

This report presents the results of our review of Delivery Operations – Additional Carrier
Services (Project Number 13XG018DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director, Delivery
and Post Office Operations, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Delivery Operations – Additional                                                                                  DR-MA-14-004
 Carrier Services



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Potential Additional Carrier Services ............................................................................... 2

   Additional Carrier Services Suggested in Proposed Legislation .................................. 2

   Additional Carrier Services .......................................................................................... 3

Concerns With Expanding Additional Carrier Services.................................................... 8

Offering Advertising Space on Postal-Owned Delivery Vehicles ..................................... 8

Recommendations .......................................................................................................... 9

Management’s Comments .............................................................................................. 9

Evaluation of Management’s Comments ....................................................................... 10

Appendix A: Additional Information ............................................................................... 11

   Background ............................................................................................................... 11

   Objective, Scope, and Methodology .......................................................................... 11

   Prior Audit Coverage ................................................................................................. 12

Appendix B: Postal Service Revenue Opportunity – Advertising on Vehicles ............... 13

Appendix C: Management’s Comments ........................................................................ 15
Delivery Operations – Additional                                                                           DR-MA-14-004
 Carrier Services




Introduction

This report presents the results of our self-initiated review of the U.S. Postal Service's
potential to expand carrier services. Additional carrier services are those not directly
related to the delivery of letters, printed matter, or mailable packages.1 The objective of
this review was to assess opportunities for the Postal Service to add carrier services to
delivery operations (Project Number 13XG018DR000). See Appendix A for additional
information about this review.

The Postal Service has been operating at a deficit because of declining mail volume
and revenue.2 To address budget issues and increase profit, the Postal Service
proposed several cost-cutting initiatives in its Five-Year Business Plan,3 such as
eliminating Saturday delivery, recalculating retirement prefunding obligations, and
downsizing the workforce. The Postal Service’s efforts to eliminate budget deficits did
not focus on taking advantage of the delivery “last mile.” Additional carrier services
could increase revenue and enhance the Postal Service brand.

Conclusion

The Postal Service could increase the value of delivery operations, bolster revenue, and
address community needs by offering additional carrier services. We identified a variety
of services that could generate revenue, such as monitoring services for the elderly,
collecting air quality data, verifying identification, delivering prescriptions on the same
day, updating maps, and reporting on traffic conditions.

Some of these ideas may not be immediately feasible due to legal restrictions, but
management should consider them. However, the Postal Service could generate
revenue immediately by selling advertising space on its delivery vehicles.

The Postal Service agreed with the premise of advertising on its delivery vehicles and
studied the issue during our review. A market analysis the Postal Service conducted
during our review estimated a revenue potential of about $15 million in FY 2014 and
$30 million in FY 2015 from this initiative. However, officials said revenue opportunities
would be hampered by market saturation and because the Postal Service could only
advertise a few products and services on delivery vehicles without harming its brand
(see Appendix B).

1
  A Postal Service product need not be mailed to constitute a “postal” offering. Specifically, the Postal
Accountability and Enhancement Act (PAEA) defines a Postal Service product as "delivery of letters, printed matter,
or ‘mailable’ packages, including acceptance, collection, sorting, transportation, or other functions ancillary thereto,"
PL 109-435, §101.
2
  Postal Service mail volume declined from about 171 to 160 billion pieces from fiscal years (FY) 2010 to 2012. In
addition, the Postal Service had losses of $5 billion in FY 2011 and $15.9 billion in FY 2012.
3
  Plan to Profitability, Five-Year Business Plan, dated February 16, 2012.
                                                             1
Delivery Operations – Additional                                                                   DR-MA-14-004
 Carrier Services




Potential Additional Carrier Services

To remain viable and provide needed services to the public, the Postal Service could
offer additional carrier services.4 As summarized below, proposed legislation and prior
U.S. Postal Service Office of Inspector General (OIG) reports have recommended
several additional carrier services. Customers surveyed in an OIG-sponsored blog
suggested additional carrier services the Postal Service could offer in communities to
help sustain a viable presence.5 Our additional input and that of several stakeholders,
along with a review of foreign posts’ websites, also provided several ideas for additional
carrier services.

Additional Carrier Services Suggested in Proposed Legislation

In 2009, the Postal Service asked Congress6 to change the law so it could offer
non-postal products and services to generate additional revenue. Several bills have
been introduced that propose removing existing prohibitions and suggest new products
and services the Postal Service could offer to raise revenue.

For example, the 21st Century Postal Service Act of 2012 (S.1789), which passed in the
Senate on April 26, 2012, would allow the Postal Service to offer non-postal products or
services if the Postal Regulatory Commission (PRC) determines they:

   Use the Postal Service’s processing, transportation, delivery, and retail network, or
    its technology.

   Respond to public interest and a demonstrated demand for the Postal Service to
    offer them.

   Do not create unfair competition with the private sector.

   Have the potential to improve the Postal Service’s financial condition.

Congress has not enacted any of the proposed legislation. Although S. 17897 passed in
the Senate, it did not pass in the House of Representatives before the 112 th Congress
ended on January 3, 2013. The bill was reintroduced as the Postal Reform Act of 2013
(S. 1486)8 and a congressional committee revised its status to "Reported by Committee"
in February 2014.

4
  Some carrier services strategies focus on carrier equipment.
5
  The OIG posted a blog on January 16, 2012, titled What Else Could Postal Carriers Do? about carriers handling
non-postal related tasks and additional services.
6
  November 5, 2009, testimony of then-Postal Service president of Mailing and Shipping Services before the House
of Representatives Committee on Oversight and Government Reform, Subcommittee on Federal Workforce, Postal
Service, and the District of Columbia.
7    st
  21 Century Postal Service Act of 2012.
8               th
  S. 1486 – 113 Congress Postal Reform Act of 2013, introduced August 1, 2013.

                                                        2
Delivery Operations – Additional                                                                      DR-MA-14-004
 Carrier Services




Additional Carrier Services

Ideas for additional carrier services came from several sources. We surveyed the public
in an OIG-sponsored blog seeking suggestions for additional carrier services the Postal
Service could offer to help sustain a viable presence in communities. The OIG also
suggested additional carrier services in a prior report,9 including offering small
businesses an easy and low-cost way to distribute advertising flyers and circulars and
sell advertising space in Postal Service outlets and on delivery vehicles. We also added
our input and that of several stakeholders (see Table 1).

                     Table 1. Suggested Additional Letter Carrier Services


                  Suggested Additional Letter Carrier Services                             Blog           OIG
    1. Monitoring Services for Elderly and/or Disabled Customers                          
    2.   Collection of Air Quality Details on Delivery Vehicles                                             
    3.   Identification Verifications                                                                       
    4. Door-to-Door Services and Sales from Businesses to Customers –                                      
       Same Day Delivery for Groceries and Prescriptions
    5. Door Handle Flyers                                                                                    
    6. Map Updates and Traffic Reporting Services                                         
    7. Meals on Wheels for Senior Citizens                                                
    8. Security Monitoring Services for Customers on Vacation                             
    9. Selling Advertising Space on Postal-Owned Delivery Vehicles                                           
    10. Door-to-Door Service – Collection for Charities                                   
    11. Lost Luggage Forwarding Services for Airlines                                     
    12. Serving Court Documents                                                           
    13. Water, Gas, or Electric Meter Reading Services                                    
    14. Crime Prevention Services – Cameras Mounted on Delivery Vehicles                  
    15. Delivery of Heavy Items                                                                             
    16. Collection of Census Data                                                                           
    17. Collection of Take Away Boxes for Recycling and Clothing                                            
    18. Bandwidth Reading                                                                                   
    19. Downloading Bill Payments                                                                           
    20. Scanner Usage on Delivery Routes for Cash-on-Delivery                                               
    21. Delivery of Dry Cleaning to Customers                                                               
    22. Detection of Natural Gas Leaks                                                                      
Source: Results of the OIG's January 16, 2012, blog titled, What Else Could Postal Carriers Do? Also, other input
obtained during the review.


9
    Revenue Generation Strategic Report (Report Number MS-MA-10-002, dated September 28, 2010).

                                                          3
Delivery Operations – Additional                                               DR-MA-14-004
 Carrier Services



Implementation of the above suggestions, described in more detail below, may require
higher investments, changes in core hours, additional training and equipment, or other
adjustments.

1. Monitoring Services for Elderly and/or Disabled Customers – Private companies
   provide 24/7 medical alert coverage to elderly and/or disabled customers who wish
   to live an independent life. Postal Service carriers perform this service informally
   through the Carrier Alert program. As part of the program, carriers watch for
   customers' mail volume to increase in mailboxes and monitor how long it takes
   customers to retrieve their mail. The Postal Service could partner with elderly and/or
   disabled monitoring companies, which would allow carriers to provide feedback on
   the status of customers on routes as part of the Carrier Alert program. This would
   generate revenue and keep family members informed about relatives with mobility
   issues.

2. Collection of Air Quality Details on Delivery Vehicles – In partnership with air quality
   companies, carriers would perform this service using specially equipped vehicles
   that would collect air quality measurements while they delivered mail on their regular
   routes. Postal Service carriers perform universal delivery services to delivery points
   6 days a week. Air quality devices mounted on carriers' vehicles would provide
   wireless feedback to companies without interfering with the carrier’s mail delivery.

3. Identification Verification – The Postal Service could partner with companies to verify
   individuals for employment with the government or private companies. The Postal
   Service has delivery routes that require carriers to exit delivery vehicles to perform
   door-to-door delivery service.

4. Door-to-Door Delivery Services and Sales from Businesses to Customers –Same
   Day Delivery for Groceries and Prescriptions – This service would provide door-to-
   door delivery of groceries and same day prescriptions from businesses to
   customers. Postal Service carriers are doing this informally through the Customer
   Connect and Rural Reach programs. Through these programs, carriers leverage
   their business relationships with customers by identifying new business opportunities
   and obtaining customer concurrence to meet with a sales representative to generate
   revenue. Carriers could perform similar services with package delivery containing
   prescriptions and non-perishable groceries. The Postal Service could partner with
   companies for same day delivery of groceries or prescriptions to generate revenue
   and help customers who have mobility issues.

5. Door Handle Flyers – This service would have carriers place flyers on door handles.
   The Postal Service has delivery routes that require carriers to exit delivery vehicles
   to perform door-to-door delivery service. Carriers perform similar services with mail
   delivery of advertising information.

6. Map Updates and Traffic Reporting Services – This would provide electronic map
   updates. Mapping of stable residential areas may be on a one-time basis with

                                             4
Delivery Operations – Additional                                                               DR-MA-14-004
 Carrier Services


       annual updates. In the Postal Service’s Metro Post Same Day Delivery service pilot
       test in the San Francisco District, carriers used Smartphones equipped with Google
       Maps for directions and included traffic feedback to Metro Post operations. Mobile
       sensors on vehicles could obtain this data as letter carriers perform street deliveries.
       Postal Service carriers perform universal delivery services for delivery points 6 days
       a week. The Postal Service could partner with companies for map updates and
       traffic reporting services. Map updates and traffic reporting devices mounted on
       carriers' vehicles would provide wireless feedback to companies without interfering
       with the carrier’s mail delivery duties.

7. Meals on Wheels for Senior Citizens – This agency provides millions of meals a day
   to senior citizens in their homes through volunteer services using specialized
   vehicles. The Postal Service would need to modify its current delivery fleet to include
   specialized equipment that meets meal delivery requirements.

8. Security Monitoring Services for Customers on Vacation – This would provide
   monitoring of customers' property while they are on vacation for fires, unlawful
   entries, and water damage. Postal Service carriers are already performing it on a
   limited, informal basis through the Carrier Alert program. As part of the program,
   carriers report fires, unlawful entries, and water damage they observe during street
   delivery on park-and-loop, foot, curbside, and dismount routes. Customers can ask
   the Postal Service to hold their mail safely at local post offices while they are away
   from home. The Postal Service could partner with security monitoring companies for
   carriers to provide feedback on the status of customers' property on their routes as
   part of the Carrier Alert program. There may be concerns regarding security
   monitoring, since this would be an extension of law enforcement agencies' duties.

9. Selling Advertising Space on Postal-Owned Delivery Vehicles – The Postal Service
   could generate revenue by selling advertising on its delivery and collection
   vehicles,10 providing an extensive presence throughout the U.S. The Postal Service
   has property leases with advertisers for rooftop spaces and excess land. There may
   be concerns regarding market saturation and advertising information that could
   compromise the Postal Service brand. The Postal Service could advertise its
   products and employment opportunities rather than advertising a competitor’s
   products and services to increase public awareness and generate revenue.

 10. Door-to-Door Service – Collections for Charities – This service would provide
     door-to-door collections for charities. The Postal Service has delivery routes that
     require carriers to exit delivery vehicles to perform door-to-door delivery service.
     The Postal Service could partner with charitable organizations for carrier pickup and
     delivery to generate revenue and create goodwill in communities.

 11. Lost Luggage Forwarding Services for Airlines – This service would provide lost or
     delayed luggage forwarding to airline customers 24/7. Carriers have historically
     delivered lost luggage to customers. The Postal Service could form partnerships

10
     Revenue Generation Strategic Report (Report Number MS-MA-10-002, dated September 28, 2010).

                                                       5
Delivery Operations – Additional                                                 DR-MA-14-004
 Carrier Services


     with airlines and luggage-forwarding vendors as part of the “Metro Post Same Day
     Delivery” program. As part of the program, vendors would request pickup of lost
     luggage for carriers to deliver to customers the same day. The Postal Service
     partnerships could also include vendors that drop shipments of customers' luggage
     at unit locations for carriers to deliver to customers on their routes.

 12. Serving Court Documents – The carrier would serve court documents, such as
     warrants, foreclosure notices, and subpoenas, to customers. Postal Service carriers
     perform similar services with delivery of Registered and Certified Mail that may
     include court documents requiring an addressee signature.

 13. Water, Gas, or Electric Meter Reading Services – This would provide meter
     readings for utility companies that manually or electronically perform such work.
     Postal Service carriers perform universal delivery services for delivery points 6 days
     a week. The Postal Service could mount meter reading devices on carriers' vehicles
     and provide wireless feedback to companies on customers' usage without
     interfering with mail delivery service.

 14. Crime Prevention Services – Cameras Mounted on Delivery Vehicles – This service
     would monitor customers' neighborhoods for crime. Postal Service carriers would
     report suspicious activities or unlawful entries during normal street delivery on
     routes that include park-and-loop, foot, curbside, and dismount. Postal Service
     carriers are performing some crime prevention service informally through the
     Carrier Alert program. There may be concerns about cameras mounted on delivery
     vehicles due to possible liabilities related to customers' perception of carriers
     monitoring their activities as agents of law enforcement. The Postal Service could
     partner with companies for customer home monitoring services while carriers
     deliver mail on their routes to generate revenue.

 15. Delivery of Heavy Items – This service would provide delivery of larger, heavier
     items, such as pianos, furniture, equipment, or oversized containers. The Postal
     Service has restrictions on the size and weight for mailpieces that carriers lift and
     deliver to customers which would need to be examined.

 16. Collection of Census Data – This service would have carriers collect census data
     for federal and state government agencies. The Postal Service has delivery routes
     that require carriers to leave their delivery vehicles to perform door-to-door delivery.
     Carriers perform similar services with the mail delivery and collection of census data
     through the normal mailstream. The Postal Service could partner with data-
     gathering companies to collect census data, but expressed concern regarding the
     time carriers would need to interview customers to collect detailed information.
     Concerns may exist regarding the impact on the job market for others who perform
     this specific, temporary work.

 17. Collection of Take Away Boxes for Recycling and Clothing – This service would
     have carriers collect donated clothing for agencies that help individuals with
     financial issues. The Postal Service has delivery routes that require carriers to

                                              6
Delivery Operations – Additional                                                           DR-MA-14-004
 Carrier Services


        leave their delivery vehicles to perform door-to-door delivery which would be
        advantageous if the Postal Service collects for donations. The Postal Service could
        partner with recycling and charitable organizations for carrier pickup and delivery to
        generate revenue and create goodwill. The Postal Service could use excess space
        in their existing facilities as staging or collection points for donated items.

 18. Bandwidth Reading – Postal Service vehicles cover the same geographic territory
     6 days a week, providing the potential for amassing valuable data that can be used
     to track changes over time. Sensors could be attached to postal-owned delivery
     vehicles to monitor the radio spectrum such as broadcast radio and television and
     satellite television to collect data on signal gaps and improve signal quality and
     reach. Also, sensors can measure the availability and performance of wireless
     networks for both broadband and mobile phone service. None of the monitoring
     would add time to the delivery route.

 19. Downloading Bill Payments – This service would allow customers to pay bills using
     a mobile application on the carrier’s Smartphone. The Postal Service has delivery
     routes that require carriers to exit delivery vehicles to perform door-to-door delivery.
     The Postal Service could partner with billing companies and carriers could obtain
     customer payments, provide customers with new technology to generate revenue,
     and help customers who have limited Internet access or mobility issues.

 20. Scanner Usage on Delivery Routes – This service would allow customers to pay for
     Cash-on-Delivery parcels using credit and debit cards. The Postal Service would
     install payment acceptance applications on carriers’ Smartphones that would allow
     them to process payments. The carrier could obtain customer payments, provide
     customers with new technology to generate revenue, and help customers who have
     limited Internet access or mobility issues.

 21. Delivery of Dry Cleaning to Customers – This service would deliver clothing that a
     customer drops off at a local dry cleaner while the carrier is on his/her normal route.
     The Postal Service has delivery routes that require carriers to leave their delivery
     vehicles to perform door-to-door delivery service. Vehicles would have to be
     properly equipped with garment bags to prevent damage. The Postal Service could
     partner with dry cleaning companies for carrier pickup and delivery of customers'
     dry cleaning to generate revenue and help customers who have mobility issues.

 22. Detection of Natural Gas Leaks – This service would use specialized sensing
     equipment mounted in city delivery vehicles to passively monitor and identify the
     potential presence or buildup of natural gas as carriers are delivering mail along
     their established daily routes. Leaks would be reported to the natural gas suppliers
     to repair timely and safely.11




11
     Internal Technical Brief -Strengthening the First and Last Mile, November 13, 2012,

                                                            7
Delivery Operations – Additional                                                                     DR-MA-14-004
 Carrier Services


We also identified some additional services foreign posts offer.12 India Post, for
example, allows carriers to collect data to help establish the nation's consumer price
index. The Austrian Post also allows the shipment of limited amounts of hazardous
material and provides temperature-controlled shipping containers for
temperature-sensitive shipments. The Denmark Post provides welfare equipment for
elderly and chronic patients, including delivery and pickup services, and mobile
postage, where customers can buy stamps directly using their mobile phones or
Smartphones.

Concerns With Expanding Additional Carrier Services

There are some concerns with the Postal Service expanding additional carrier services
in delivery operations. These include:

    PRC approval.
    Redefining the PAEA.
    Investment costs and revenue generation.
    Competition.
    Workers’ Compensation and Third-Party Liability.

Offering Advertising Space on Postal-Owned Delivery Vehicles

We identified one opportunity indirectly related to carriers that is immediately viable. The
Postal Service could generate revenue by selling advertising space on delivery vehicles.
The Postal Service already leases its property (such as rooftop space and excess land)
to advertisers and cellular providers for billboards and antennae towers. In FY 2012, the
Postal Service had about 600 non-sale lease agreements with non-government entities.

The Postal Service has 190,89713 vehicles that carriers use to deliver and collect mail
6 days a week throughout U.S. neighborhoods. As illustrated in Figures 1 through 4, the
fleet of vehicles could provide space for advertising. 14
       Figure 1.
       Long-Life                    Figure 2.                        Figure 3.              Figure 4.
        Vehicle               2-Ton Delivery Vehicle                 Mini-Van         Flexible Fuel Vehicle




 Source: Postal Service Blue Pages.



12
   These include Swiss Post, Poste Italiane, Japan Post, Royal Mail, Correios de Portugal, and SingPost websites.
13
   The 2012 Annual Report on Form 10-K shows the number of vehicles, including 1/2 to 2-1/2 ton delivery and
collection vehicles for FY 2012.
14
   The OIG is conducting are review on replacing the delivery fleet.

                                                         8
Delivery Operations – Additional                                                  DR-MA-14-004
 Carrier Services


With its strong brand name in the marketplace, the Postal Service could generate
revenue through this initiative. Postal Service Marketing and Delivery managers agreed
that placing advertising space on postal-owned delivery vehicles is a viable option. They
studied the issue and conducted a market analysis during our review.15 The Postal
Service estimates it could generate revenue of about $15 million in FY 2014 and
$30 million in FY 2015. The study said revenue generation would be restricted because
of market saturation and the ability to advertise only a few products or services on
delivery vehicles without harming the Postal Service brand.

Recommendations

We recommend the executive vice president, chief Marketing and Sales officer, in
coordination with the vice president, Delivery and Post Office Operations:

1. Develop and implement a strategy to identify, evaluate, and offer the most promising
   additional carrier services.

2. Jointly conduct a pilot test on delivery vehicle advertising and gather sufficient data
   during the pilot to support the decision to continue or discontinue the concept.

Management’s Comments

Management agreed with the first finding and the associated recommendation.
Management disagreed with the second recommendation and the associated revenue
opportunity.

Regarding recommendation 1, management plans to identify and evaluate opportunities
to leverage postal assets, including carrier services. Management stated they already
have a strategy in place for identifying and evaluating suggestions, including
collaboration with functional groups and external stakeholders to develop concepts for
testing and implementation. Management also stated they are committed to exploring
revenue-generating opportunities and a number of ideas, such as additional carrier
services, to grow revenue. Management further stated they have completed some
research and conducted focus group sessions. In addition, they have generated ideas
like warehousing and the “mailbox of the future” focus on meeting changing consumer
needs and responding to the growth of e-commerce. Management noted that the Postal
Service welcomes any and all suggestions and will focus on ideas that offer the greatest
revenue opportunities and potential for a successful proof of concept. The target
implementation date is October 2015 for the most viable ideas.

Regarding recommendation 2 and the revenue opportunity, management disagreed
with conducting a joint pilot test on delivery vehicle advertising and the associated
revenue opportunity. Management stated the OIG is not taking into account the
implementation costs and the impact on the Postal Service brand. In addition, they
believe the revenue opportunity is limited and a pilot test is unnecessary. Management

15
     Universal McCann media agency market analysis results, dated May 21, 2013.

                                                         9
Delivery Operations – Additional                                              DR-MA-14-004
 Carrier Services


noted that advertising on postal-owned vehicles would dilute the Postal Service brand
by introducing another brand or product targeting certain markets and populations.
Management also noted they would have to evaluate selling advertising space on
delivery vehicles based on a revenue cost analysis, carrier safety and morale, and legal
and liability issues. They further stated that additional considerations would be existing
competition and a fragmented marketplace where out-of-home advertising is purchased
locally or regionally, which would limit opportunities to only high population-density
areas. Management concluded the revenue opportunity is limited when weighed against
all factors, especially the importance of protecting the brand of the Postal Service – one
of the country’s most trusted brands.

See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendation 1 and
corrective actions should resolve the issues identified in the finding. The OIG does not
consider management’s comments responsive to recommendation 2, but does not plan
to pursue it through the formal audit resolution process.

The Postal Service disagreed with jointly conducting a pilot test on delivery vehicle
advertising and the associated revenue impact. Although the Postal Service is pursuing
additional revenue, its financial condition calls for pursuing all viable
revenue-generating strategies. Further, advertising on vehicles would not require
congressional legislation, and a Postal Service study concluded that placing advertising
space on postal-owned delivery vehicles is a viable option. We recognize the $45.5
million does not include cost associated with the project and that this revenue strategy
will not be easy to implement and has some significant challenges. However, by not
pursuing this option, the Postal Service is missing an opportunity to increase revenue.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed for recommendation 1. This recommendation should not
be closed in the Postal Service’s follow-up tracking system until the OIG provides
written confirmation that the recommendation can be closed. Recommendation 2 will be
closed with the issuance of this report.




                                            10
Delivery Operations – Additional                                               DR-MA-14-004
 Carrier Services



                              Appendix A: Additional Information

Background

The Postal Service’s Delivery Operations has about 233,000 letter carriers. These letter
carriers deliver mail on over 217,000 routes using over 190,000 delivery and collection
vehicles. From FYs 2010 to 2012, mail volume declined from about 171 to 160 billion
mailpieces. The Postal Service had net losses of $5 billion in FY 2011 and $15.9 billion
in FY 2012.

The Postal Service prepared a Five-Year Business Plan to address budget concerns
and increase profits. Most of the proposed efforts to reduce budget deficits are
cost-cutting initiatives, such as eliminating Saturday delivery, recalculating retirement
prefunding obligations, and downsizing the workforce. Revenue-generating
opportunities could also improve the Postal Service’s finances. Taking advantage of the
delivery “last mile” by adding carrier services not directly related to mail delivery could
increase revenue and enhance the Postal Service brand.

Objective, Scope, and Methodology

Our objective was to assess opportunities for the Postal Service to add carrier services
to its delivery operations. To accomplish our objective, we:

   Researched laws and pending legislation related to adding letter carrier services.

   Examined foreign postal system websites and reviewed prior reports and Risk
    Analysis Research Center white papers, and had internal conversations to identify
    some of the added carrier services.

   Conducted and analyzed an OIG-sponsored blog to determine which additional
    carrier services the Postal Service could offer to generate revenue and sustain a
    viable presence in communities.

   Interviewed Postal Service Headquarters officials to obtain their feedback on adding
    carrier services and discussed issues with the National Association of Letter Carriers
    and National Rural Letter Carriers’ Association.

   Obtained and analyzed the Universal McCann media agency's May 21, 2013, Postal
    Service marketing analysis to determine revenue-generating opportunities and
    estimated profits from advertising on vehicles.

We conducted this review from January 2013 through June 2014, in accordance with
the Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with



                                              11
Delivery Operations – Additional                                            DR-MA-14-004
 Carrier Services


management on September 4, 2013, and April 14, 2014, and included their comments
where appropriate.

We relied on hour and wage data Postal Service officials provided to support
calculations related to advertising on postal-owned vehicles. We determined that the
data were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

There were no prior audits. However, the OIG issued a report titled 21st Century Post
Office: Non-Postal Products and Services (Report Number DA-MA-12-005, dated
July 16, 2012) that determined the Postal Service could increase the value of Post
Office retail facilities and address community needs by evaluating and offering non-
postal products and services. The OIG recommended the Postal Service develop a
strategy to identify, evaluate, and offer the most promising non-postal products and
services, including ways to overcome identified barriers, when legally permitted.
Management agreed with the findings and recommendations.




                                           12
Delivery Operations – Additional                                                                    DR-MA-14-004
 Carrier Services




     Appendix B: Postal Service Revenue Opportunity – Advertising on Vehicles

                                                                Revenue              Fiscal
                       Impact Category                         Opportunity            Year
                Potential Additional Revenue                   $15,187,765            2014
                Potential Additional Revenue                    30,375,531            2015
                Total                                          $45,563,296

Based on a review of the marketing analysis,16 the Postal Service has estimated
revenue opportunities of $15,187,765 in FY 2014 and $30,375,531 in FY 2015 from
sales of advertising space on delivery vehicles. The estimate takes into account actual
vehicles, limitations in the portions of the market that have dense populations, market
saturation, and lack of competitive advantage.

We calculated revenue opportunities of $15,187,765 in FY 2014 and $30,375,531 in
FY 2015 as follows:

    The Postal Service had 190,897 delivery and collection vehicles as of FY 2012.17

    The Postal Service estimated it would sell advertisements on 34 percent of its
     vehicles (or 64,905 vehicles). We reduced that by 50 percent (or 32,452 vehicles)
     based on the assumptions in the Postal Service's marketing research study. The
     Postal Service based the 34 percent on vehicles used in more densely populated
     areas, which it defines as those with a minimum population of 50,000. But Postal
     Service officials acknowledged that only 50 percent of the more densely populated
     areas could deliver the sizeable impressions18 per unit required to be competitive.
     This led us to reduce by 50 percent the pool of vehicles that present profitable
     advertising opportunities.

    The Postal Service used our estimated monthly rate of $300 per advertisement for
     12 months. We based the $300 rate on assumptions in the OIG's management
     advisory report, Revenue Generation Strategic Report (Report Number
     MS-MA-10-002, dated September 28, 2010).

    The Postal Service estimated that selling advertisements on 32,452 vehicles at a
     monthly rate of $300 would generate $9,735,600 monthly. We reduced this amount


16
   Universal McCann media agency results dated May 21, 2013. Universal McCann results indicated concern
regarding the number of advertisement sales needed to achieve a profit and category restrictions that limit the
potential customer base in an effort to maintain the Postal Service's brand name.
17
   The 2012 Annual Report on Form 10-K shows the number of vehicles included 1/2 to 2-1/2 ton delivery and
collection vehicles for FY 2012. Postal Service Headquarters officials accepted the OIG's actual vehicle number of
190,897, which was 621 more than their estimate of 190,276 delivery and collection vehicles as of FY 2012.
18
   Impression is considered one sign on a postal vehicle. Management stated the standard for minimum impressions
is 300,000 units per month.

                                                        13
Delivery Operations – Additional                                                                       DR-MA-14-004
 Carrier Services


     by 35 percent to arrive at $6,328,236 monthly. We based the 35 percent reduction
     on the Postal Service's marketing analysis, which considered the average
     sell-through rate of 65 percent in metro markets.19 The Postal Service estimated it
     sells about 40-60 percent of total inventory each year in smaller metro markets and
     70-90 percent in larger markets, such as New York City.




19
  The 65 percent average represents the universe of advertisers that will continue their service with the Postal
Service through an entire year.

                                                          14
Delivery Operations – Additional                                DR-MA-14-004
 Carrier Services



                            Appendix C: Management’s Comments




                                           15
Delivery Operations – Additional        DR-MA-14-004
 Carrier Services




                                   16
Delivery Operations – Additional        DR-MA-14-004
 Carrier Services




                                   17
